APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(August 13, 2019) . . . . . . . . . . . . . App. 1
Appendix B Order of Dismissal and Judgment in
the United States District Court for
the Northern District of Florida
Tallahassee Division
(May 30, 2018). . . . . . . . . . . . . . . App. 13
Appendix C U.S. Department of Agriculture Forest
Service Special Use Permit for
Noncommercial Group Use for
Rainbow Family Gathering . . . . App. 28

App. 1

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12574
Non-Argument Calendar
D.C. Docket No. 4:17-cv-00025-RH-CAS
[Filed August 13, 2019]
____________________________________________
KYLE RAY HURST, Personal Representative
of the Estate of Andrew James Hurst on behalf
of the Estate of Andrew James Hurst Deceased
and the Statutory Wrongful Death Survivors
of Andrew James Hurst,
Plaintiff-Appellant,

)
)
)
)
)
)
)
versus
)
)
UNITED STATES OF AMERICA, acting by
)
and through the Department of the
)
Agriculture US Forest Service,
)
Defendant-Appellee.
)
____________________________________________ )
Appeal from the United States District Court
for the Northern District of Florida
(August 13, 2019)

App. 2
Before MARCUS, ROSENBAUM, and ANDERSON,
Circuit Judges.
PER CURIAM:
Plaintiff-Appellant Kyle Ray Hurst (“Hurst”), as
personal representative of his deceased son’s estate and
also on behalf of his son’s statutory wrongful death
survivors, sued the United States government for
damages for wrongful death under the Federal Tort
Claims Act, 28 U.S.C. §§ 1346(b), 2671 et seq. (the
“FTCA”), and relevant laws of the State of Florida,
after his son died of an apparent drug overdose at a
gathering of the Rainbow Family of Living Light (the
“Rainbow Family”) in the Apalachicola National Forest.
He appeals the district court’s order granting the
government’s motion to dismiss for lack of subjectmatter jurisdiction and, alternatively, granting the
government’s motion for summary judgment. Because
both holdings of the district court involved sufficiently
intertwined jurisdictional-merits issues, we exercise
our discretion to address in this opinion only the latter
alternative holding.1 On appeal, Hurst argues that the
district court erred by granting the government’s
1

Hurst also challenges the district court’s decision to grant the
government’s 12(b)(1) motion to dismiss on grounds that the
discretionary function exception under the FTCA does not apply in
this case because the government failed to perform several
mandatory government functions with respect to the Rainbow
Family gathering at Moore Lake. In light of our holding that
Hurst’s claims against the government are barred under the FTCA
because Hurst has not carried his burden of showing that an
individual person would be liable under Florida law in similar
circumstances, we need not address this additional argument
raised by Hurst.

App. 3
motion for summary judgment because the Florida
Recreational Use Statute, Fla. Stat. § 375.251 (the
“FRUS”), does not apply in this case. We have reviewed
the parties’ briefs, relevant portions of the record, and
applicable law. For the reasons described below, we
affirm the district court’s decision dismissing Hurst’s
claims.
I. BACKGROUND
We assume the parties are familiar with the factual
and procedural background of this case and recount
that background here only to the extent necessary to
provide context for our decision. Hurst’s 16-year-old son
Andrew James Hurst died on or about March 9, 2013
while attending the Sixth Annual A-cola North
Florida/Apalachicola Rainbow Gathering at Moore
Lake. The gathering was hosted by the Rainbow
Family, which according to Hurst “is known to be the
largest non-organization of non-members in the world
without official leaders or structures.” Although the
Rainbow Family aims to “honor[ ] Mother Earth” and
“promote peace and love on Earth,” its gatherings are
also known for “the sale, distribution, and use of
controlled substances.”
Moore Lake, the site of the relevant Rainbow
Family gathering, is located on the Florida Panhandle
near Tallahassee. It is also located inside the
Apalachicola National Forest, which is administered by
the United States Forest Service (“USFS”). Although
there are designated recreation areas within the
Apalachicola National Forest that require guests to pay
a fee and from which the government derives revenue,
Moore Lake and the area surrounding it is not such an

App. 4
area. The closest recreation area inside the
Apalachicola National Forest that charges a fee and
generates government revenue is Silver Lake, which is
located approximately three to four miles away from
the Moore Lake area.
The USFS issued a special use permit to the
Rainbow Family for its 2013 gathering at Moore Lake.
The permit allowed the Rainbow Family to use a threesquare-mile area near Moore Lake for its gathering. It
expressly authorized the Rainbow Family to conduct
certain enumerated activities, including “recreational
gathering,” camping, and swimming. The permit also
required the Rainbow Family to comply with federal,
state, county, and municipal laws. Sadly, Hurst’s son
died while attending the 2013 Rainbow Family
gathering. An autopsy determined that the cause of
death was the toxic substance 2C-C-NBOME, a
psychedelic and illegal drug.
After exhausting administrative remedies, Hurst
brought a wrongful death action for damages against
the United States government under the FTCA and
relevant laws of the State of Florida. In essence, Hurst
alleged that the government should not have issued the
special use permit for the Rainbow Family gathering in
the first place (because it was aware of the Rainbow
Family’s reputation for criminality, including the sale,
distribution, and use of controlled substances) and,
once it did, it should have performed several
non-discretionary governmental functions that possibly
would have prevented Hurst’s son’s death (including,
as relevant to this appeal, creating a law enforcement

App. 5
plan, patrolling the gathering, and cooperating with
local police in enforcing applicable laws).
The government moved to dismiss pursuant to Fed.
R. Civ. P. 12(b)(6), asserting that Hurst failed to state
a claim on which relief could be granted. It argued, as
it does here, that the FTCA provided no relief for
Hurst’s claims because the FRUS would bar claims
against a private person or individual under Florida
law in similar circumstances. The district court
converted the Rule 12(b)(6) motion to a motion for
summary judgment. The district court then granted the
government’s converted motion for summary judgment
on grounds that the FRUS would bar recovery under
the FTCA. It entered judgment dismissing all of
Hurst’s claims. This appeal followed.
II. STANDARD OF REVIEW
This Court reviews a district court’s grant of
summary judgment de novo. Swafford v. United States,
839 F.3d 1365, 1369 (11th Cir. 2016). Summary
judgment is appropriate if the record shows “no
genuine dispute as to any material fact and that the
movant is entitled to judgment as a matter of law.” Id.
(quoting Fed. R. Civ. P. 56(a)).
III. DISCUSSION
The district court did not err when it granted the
government’s motion for summary judgment on
grounds that the FRUS would bar recovery against the
government in this case. The United States, as a
sovereign power, “is immune from suit unless it
consents to be sued.” Zelaya v. United States, 781 F.3d
1315, 1321 (11th Cir. 2015). With respect to certain tort

App. 6
claims, the FTCA waives this “traditional
all-encompassing immunity” under particular
circumstances. Douglas v. United States, 814 F.3d
1268, 1280 (11th Cir. 2016) (Tjoflat, J., concurring)
(quoting Rayonier Inc. v. United States, 352 U.S. 315,
319, 77 S. Ct. 374, 377 (1957)). As relevant to our
disposition of this appeal, § 2674 of the FTCA provides
that “[t]he United States shall be liable, respecting the
provisions of this title relating to tort claims, in the
same manner and to the same extent as a private
individual under like circumstances.” 28 U.S.C. § 2674
(emphasis added). A related jurisdictional statute
grants the district courts of the United States
“exclusive jurisdiction of civil actions on claims against
the United States . . . for personal injury or death . . .
under circumstances where the United States, if a
private person, would be liable to the claimant in
accordance with the law of the place where the act or
omission occurred.” 28 U.S.C. § 1346(b)(1) (emphasis
added); see also Zelaya, 781 F.3d at 1322–24
(discussing interplay between § 1346(b)(1) and § 2674).
In other words, two relevant provisions of federal law
work together to “preclude liability of the federal
government absent a showing by the plaintiff that a
private individual . . . in like circumstances[ ] would be
liable for the particular tort under governing state law
where the tort occurred.” Zelaya, 781 F.3d at 1323. As
plaintiff, it is Hurst’s burden to make this showing. See
id.; Douglas, 814 F.3d at 1282 n.3 (Tjoflat, J.,
concurring) (citing 28 U.S.C. § 1346(b)(1)).
In turn, relevant Florida law (the FRUS) provides
individual owners of land with certain legal protections
when they make their land available to the public for

App. 7
certain purposes without charging a fee. See generally
Fla. Stat. § 375.251. The relevant statutory language is
as follows:
An owner or lessee who provides the public
with an area for outdoor recreational purposes
owes no duty of care to keep that area safe for
entry or use by others, or to give warning to
persons entering or going on that area of any
hazardous conditions, structures, or activities on
the area. An owner or lessee who provides the
public with an area for outdoor recreational
purposes:
1. Is not presumed to extend any assurance
that the area is safe for any purpose;
2. Does not incur any duty of care toward a
person who goes on the area; or
3. Is not liable or responsible for any injury to
persons or property caused by the act or
omission of a person who goes on the area.
Id. § 375.251(2)(a). The FRUS defines “area” to include
“land, water, and park areas,” and “outdoor
recreational purposes” to include, without limitation,
“hunting, fishing, wildlife viewing, swimming, boating,
camping, picnicking, hiking, pleasure driving, nature
study, water skiing, motorcycling, and visiting
historical, archaeological, scenic, or scientific sites.” Id.
§ 375.251(5). The FRUS further acknowledges “that an
area offered for outdoor recreational purposes may be
subject to multiple uses,” and that the limitation of
liability applies “only if no charge is made for entry to
or use of the area for outdoor recreational purposes and

App. 8
no other revenue is derived from patronage of the area
for outdoor recreational purposes.”2Id. § 375.251(2)(c).
The FRUS limitation of liability also does not relieve
the landowner of any liability “that would otherwise
exist for deliberate, willful, or malicious injury to
persons or property.” Id. § 375.251(4).
Thus, subject only to a limited number of
exceptions, the Florida legislature made it clear that
the purpose of the FRUS “is to encourage persons to
make land, water areas, and park areas available to
the public for outdoor recreational purposes by limiting
their liability to persons using these areas and to third
persons who may be damaged by the acts or omissions
of persons using these areas.” Id. § 375.251(1).

2

Courts applying Florida law have construed this limitation
relatively strictly. See, e.g., Fernandez v. United States, No.
17-cv-21422, 2017 WL 6343575, at *2–4 (S.D. Fla. Dec. 12, 2017)
(granting motion to dismiss in favor of the United States because
“a plain reading of the statute as [a] whole suggests that liability
will not attach unless the injury occurred in the distinct area
where revenue is derived from patronage,” even though revenue
was generated in other areas inside the same national park), aff’d
766 F. App’x 787 (11th Cir. 2019) (unpublished); accord Kleer v.
United States, 761 F.2d 1492 (11th Cir. 1985). Hurst has not
argued on appeal that the area surrounding Moore Lake in which
the 2013 Rainbow Family gathering occurred is an area (or part of
an area) where a charge is made for entry or where revenue is
derived from outdoor recreational activities, and therefore has
abandoned any challenge to the district court’s dismissal of his
claims on that basis. See Access Now, Inc. v. Sw. Airlines Co., 385
F.3d 1324, 1330 (11th Cir. 2004) (“Any issue that an appellant
wants [us] to address should be specifically and clearly identified
in the brief. . . . Otherwise, the issue—even if properly preserved
at trial—will be considered abandoned.”).

App. 9
Hurst presents two arguments on appeal with
respect to the FRUS. Neither argument is persuasive.
First, Hurst argues that the Rainbow Family used the
Moore Lake area for criminal activity (i.e., illegal drug
use) and not for “outdoor recreational purposes” as
contemplated by the FRUS. But, this argument ignores
the plain language of the FRUS, which clearly
acknowledges that “that an area offered for outdoor
recreational purposes may be subject to multiple uses,”
and that camping and swimming—two of the activities
expressly authorized by the special use permit issued
by the USFS to the Rainbow Family in connection with
the 2013 gathering—are included within the FRUS
definition of “outdoor recreational purposes.”3
Moreover, the FRUS clearly provides that landowners
covered by the statute have no duty to warn of any
hazardous activities on the area and also are “not liable
or responsible for any injury to persons or property
caused by the act or omission of a person who goes on
the area.” This indicates to us that once land is made
available to the public for legitimate outdoor
recreational purposes at no charge, immunity under
the FRUS still attaches even if the unlawful acts or
omissions of persons present at the property cause
injury.

3

Based on our review of the record (including evidence of what has
occurred at other Rainbow Family gatherings and the
characteristics of Moore Lake and the Apalachicola National
Forest), it also is likely that the Rainbow Family used the Moore
Lake area for other outdoor recreational purposes under the
FRUS, including wildlife viewing, nature study, and visiting scenic
sites.

App. 10
This is not to suggest that the USFS could issue a
special use permit for the sole purpose of providing the
Rainbow Family (or any other group) with an area to
sell and use illegal drugs; it clearly could not. But
Hurst has not pointed to—and we are unaware of—any
Florida authority indicating that, when an area of
property is used for more than one purpose, at least
one of which clearly qualifies as an “outdoor
recreational purpose” under the FRUS, immunity
under the FRUS is abrogated by the fact that the
public also uses the land for a purpose that is not an
“outdoor recreational purpose” or even by the fact that
the public also uses the land for an unlawful purpose.
The absence of such authority—together with the clear
statutory language acknowledging that land may be
subject to multiple uses and that a landowner need not
warn of hazardous activities and will not liable for acts
or omissions of persons using the area so long as they
do not charge a fee or act deliberately, willfully, or
maliciously to cause injury4—means that Hurst has
failed to carry his burden of showing that the FRUS
does not limit the government’s FTCA liability under
the circumstances of this case.

4

Although Hurst argued below that the FRUS limitation of
liability should not apply because the government acted
deliberately, willfully, or maliciously, he does not challenge on
appeal the district court’s conclusion that “the record includes no
evidence supporting the claim that the government deliberately,
willfully, or maliciously injured [Hurst’s son].” Although we are
inclined to agree with the district court on this point, we decline to
address this issue because Hurst has abandoned it on appeal. See
Access Now, 385 F.3d at 1330.

App. 11
Second, Hurst argues that the FRUS does not apply
to government entities like the United States. In
support of this argument, he points to cases from the
Florida state courts holding that the FRUS does not
protect government entities but instead only protects
individual persons. See, e.g., City of Pensacola v.
Stamm, 448 So. 2d 39, 41 (Fla. 1st DCA 1984)
(concluding that “section 375.251 is intended to
encourage private persons and entities to open their
private lands for public recreational use” and that “it is
not intended to protect governmental entities already
charged with that responsibility”). This argument
misunderstands the necessary interplay between the
FTCA and state tort law. The United States is only
liable in tort—and the federal district courts only have
jurisdiction to entertain suits against the United
States—in cases where a “private individual [would be
liable] under like circumstances,” 28 U.S.C. § 2674, and
in cases “where the United States, if a private person,
would be liable to the claimant in accordance with the
law of the place where the act or omission occurred,” 28
U.S.C. § 1346(b)(1). Accord Zelaya, 781 F.3d at
1322–24. Because Hurst has failed to carry his burden
of showing that a “private individual” or a “private
person” would be liable under the circumstances of this
case (i.e., that the FRUS would not apply to shield a
private landowner from liability), we conclude that the
United States has not waived its “traditional
all-encompassing immunity,” Douglas, 814 F.3d at

App. 12
1280 (Tjoflat, J., concurring), and thus cannot be held
liable in tort under the FTCA.5
IV. CONCLUSION
We hold that the district court did not err when it
granted the government’s converted motion for
summary judgment on grounds that an applicable
Florida law, the FRUS, shields the government from
tort liability under the FTCA. This is because Hurst
has not carried his burden of showing that a private
person or individual would be liable under the
circumstances of this case, as required by relevant
provisions of the FTCA. The judgment of the district
court is therefore
AFFIRMED.6

5

Indeed, Hurst seems to agree with this conclusion in his brief on
appeal. In particular, he acknowledges that “[o]f course, federal
courts have previously reviewed claims against the United States
under both the FTCA and the [FRUS], and these courts have held
that the statutes together absolve the United States from liability.”
Appellant’s Br. 25. This is precisely what we hold today, and the
fact that Florida courts reviewing claims not involving the FTCA
have held that the FRUS does not shield state governmental actors
from liability is immaterial.

6

Any other arguments asserted on appeal by Hurst are rejected
without need for further discussion.

App. 13

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
CASE NO. 4:17cv25-RH/CAS
[Filed May 30, 2018]
________________________________
KYLE RAY HURST,
)
)
Plaintiff,
)
)
UNITED STATES OF AMERICA, )
)
Defendant.
)
_______________________________ )
ORDER OF DISMISSAL
A teenager died of an overdose during an event in a
national forest. His estate filed this action under the
Federal Tort Claims Act. The Act allows tort actions
against the government in specified circumstances. The
plaintiff asserts the government’s negligence allowed
unsafe conditions to exist on its land, causing the
teenager’s death. The government has moved to
dismiss based on the Act’s discretionary-function
exception. The government has moved alternatively for
summary-judgment based on the Florida Recreational
Use Statute, which protects a landowner from tort
claims based on the condition of land made available to
the public for recreational use without charge. This
order grants the government’s motion.

App. 14
I
Andrew Hurst (“Mr. Hurst”) was 16 years old when
he went without an adult to the 6th Annual A-cola
Rainbow Gathering (“the A-cola Gathering” or “the
Gathering”) in the Apalachicola National Forest. He
had a seizure after arriving. He returned to his car,
where he seized a second time. Event attendees
witnessed his distress but were unable to locate
medical assistance. Mr. Hurst died in his car. An
autopsy concluded that he overdosed on an illegal
psychedelic. A reasonable inference is that he got the
drug at the Gathering.
The Gathering was organized by local members of
the Rainbow Family of Living Light, a
non-hierarchical, global countercultural movement.
The Rainbow Family obtained a permit to hold the
Gathering in the Apalachicola National Forest from the
United States Forest Service, the federal agency that
manages national forests. The permit authorized the
Rainbow Family to use undeveloped land around Moore
Lake for the event.
Forest Service law enforcement officers knew that
other Rainbow Gatherings in national forests had
involved illegal drug use. The Forest Service created
law enforcement plans to handle security at some of
those events. It did not create a law enforcement plan
for the A-cola Gathering, and there is little evidence
that Forest Service law enforcement officers patrolled
the day Mr. Hurst died. There is no evidence that local
law enforcement officers were on the scene prior to Mr.
Hurst’s death.

App. 15
After exhausting administrative remedies, Mr.
Hurst’s estate brought this action, claiming the Forest
Service’s negligence caused Mr. Hurst’s death. The
estate points to four allegedly negligent acts: issuing a
permit to a group known to host events involving
illegal drug use; failing to create a law enforcement
plan; failing to patrol the event the day Mr. Hurst died;
and failing to coordinate with local law enforcement to
patrol the event the day Mr. Hurst died.
The United States has moved to dismiss or
alternatively for summary judgment. The motion has
been fully briefed and orally argued and is ripe for a
decision.
II
The United States mounts a factual attack on
subject-matter jurisdiction, not a facial challenge on
the pleadings. This makes it proper to independently
weigh the evidence in the record. See Odyssey Marine
Exploration, Inc. v. Unidentified Shipwrecked Vessel,
657 F.3d 1159, 1169 (11th Cir. 2011). The burden is on
the plaintiff to demonstrate that subject-matter
jurisdiction exists. See OSI, Inc. v. United States, 285
F.3d 947, 951 (11th Cir. 2002).
In contrast, on the summary-judgment motion,
disputes in the evidence must be resolved, and all
reasonable inferences from the evidence must be
drawn, in favor of the nonmoving party. The moving
party must show that, when the facts are so viewed,
the moving party “is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); see also Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986). A summary-judgment

App. 16
motion cannot be used to resolve in the moving party’s
favor a “genuine dispute as to any material fact.” Fed.
R. Civ. P. 56(a).
III
The United States has waived its sovereign
immunity from tort claims to the extent set out in the
Federal Tort Claims Act. The Act makes the United
States liable for tort claims “in the same manner and
to the same extent as a private individual under like
circumstances,” with specific exceptions. 28 U.S.C.
§ 2674. At issue here is the “discretionary function”
exception, which deprives the court of subject-matter
jurisdiction over “[a]ny claim . . . based upon the
exercise or performance or the failure to exercise or
perform a discretionary function or duty on the part of
a federal agency or an employee of the Government,
whether or not the discretion involved be abused.” Id.
§ 2680(a).
Absent any violation of policy, the four allegedly
negligent acts at issue—issuing a permit for use of a
national forest, creating a law enforcement plan for the
event, deciding how frequently to patrol the event, and
coordinating with local law enforcement—are all
discretionary functions. The court lacks subject-matter
jurisdiction.
The analysis that supports this conclusion derives
from a long line of cases applying the
discretionary-function exception. See, e.g., United
States v. Gaubert, 499 U.S. 315, 325 (1991); Swafford
v. United States, 839 F.3d 1365, 1370 (11th Cir. 2016);
Zelaya v. United States, 781 F.3d 1315, 1330 (11th Cir.

App. 17
2015); Cohen v. United States, 151 F.3d 1338, 1344-45
(11th Cir. 1998). As these cases explain, the
discretionary-function exception applies if the
“challenged conduct is a matter of choice for the acting
employee” and if that choice “is of the kind that the
discretionary function exception was designed to
shield”—that is, if the choice involves “considerations
of public policy.” Swafford, 839 F.3d at 1370.
The exception does not apply unless both conditions
are met. Conduct that does not involve an element of
choice, as is the case when a “federal statute,
regulation, or policy specifically prescribes a course of
action,” is not a discretionary function. Cohen, 151 F.3d
at 1341. Neither is a choice that does not involve policy
matters. To use an example given by the Supreme
Court, driving an automobile “requires the constant
exercise of discretion” but “can hardly be said to be
grounded in regulatory policy.” Gaubert, 499 U.S. at
325 n.7.
A
A group like the Rainbow Family must apply for
and obtain a permit from the Forest Service before
holding a large event in a national forest. A federal
regulation governs the application process. 36 C.F.R.
§ 251.54(g)(3). It provides that the Forest Service “shall
grant an application” for a permit if it determines that
the application meets eight specified criteria. Id. As one
criterion, the Forest Service must determine that “the
proposed activity will not pose a substantial danger to
public safety.” Id.

App. 18
The regulation prescribes a course of action for
handling permit applications. The Forest Service must
consider all eight criteria and must issue a permit if all
eight are met. But the Forest Service exercises
discretion in determining whether an application meets
the criteria. For example, the Forest Service must
weigh competing policy interests to determine what
kinds of activities would pose a “substantial” danger to
public safety.
The Forest Service complied with the regulation’s
prescribed course of action in issuing the Rainbow
Family a permit for the A-cola Gathering. The Forest
Service agent who issued the permit testified that he
“look[ed] at the list [of factors] every time” he issued a
permit. ECF No. 49-1 at 7. By considering the eight
criteria and issuing a permit upon determining that an
applicant met them, the agent did all the regulation
demanded. Determining whether the Rainbow Family’s
application fit the criteria was a discretionary function.
There is a wrinkle. Asked whether he “ha[d] the
power to deny these Rainbow Family Gathering permit
applications,” the Forest Service agent who issued the
A-cola Gathering permit testified that he could “not
deny them, no.” Id. at 15. Instead, he said he would
“work with [the Rainbow Family] to find an area that
would be something that they could use for their
event.” Id. As an example, the agent said the Forest
Service once changed the location of a Rainbow Family
Gathering in the Apalachicola National Forest to
protect a salamander habitat. Id. at 16.
The plaintiff says the agent’s testimony that he
could not deny a permit means he must have deviated

App. 19
from the prescribed course of action, on the theory that
an agent who believed himself powerless to deny an
application could not have given the factors meaningful
consideration. But this is an unjustifiably inhospitable
reading of the testimony. The best reading of the
testimony is that the Rainbow Family never submitted
an application that did not—or could not with proper
tweaking—meet the criteria. On that reading, the
testimony is true and not surprising—the agent did not
have authority to deny an application that met the
criteria. The agent did not say he could never deny an
application. The agent did not say he could not deny a
nonconforming application. Instead, the agent said that
if an application did not meet the criteria as originally
submitted, the agent would work with the applicant to
cure the deficiency—to find a suitable place for the
proposed event.
In sum, the best view of the evidence is that the
agent considered the eight factors before issuing the
A-cola Gathering permit. I so find.
B
The Forest Service did not create a plan to handle
law enforcement at the A-cola Gathering. But no policy
required it do so. Deciding how to handle group-event
law enforcement is a discretionary function.
To be sure, Forest Service policies provide “direction
on the development of special law enforcement plans
and/or required analysis necessary for group
management.” ECF No. 49-9 at 60. Among other
things, these policies provide a checklist of issues to
consider “as a guide” when planning for group events.

App. 20
Id. They allow the Forest Service to “modify” the
checklist “when necessary to meet the nature and
complexity of the incident.” Id.
These policies leave the Forest Service with broad
discretion to plan for group events. The law
enforcement needs of a 75-person private birthday
party or 75-student school event differ substantially
from those of a public event with an expected
attendance exceeding 1,000. The Forest Service could
have chosen to lock in procedures applicable to every
event, no matter its nature, but the Forest Service
understandably did not do so. It would impose
significant costs on the Forest Service to require a
formal analysis for every group event.
Perhaps the Forest Service should have created a
law enforcement plan for this event, as it did for other
Rainbow Gatherings in Florida and around the
country. But the discretionary-function exception
applies “whether or not the discretion involved be
abused.” 28 U.S.C. § 2680(a). The exception applies to
the failure to create a law enforcement plan for this
event.
C
The record provides little evidence that Forest
Service law enforcement officers patrolled the A-cola
Gathering the day Mr. Hurst died.
In support of its contention that Forest Service law
enforcement officers did patrol the Gathering, the
government has submitted the declaration of Kelada
Bennett-Wallace, a Forest Service official who was not
“personally present” but says she “ensured that law

App. 21
enforcement was present and patrolled.” ECF No. 53-3.
Ms. Bennett-Wallace has not said how she knows any
officer was actually there. She has not even identified
a patrolling officer or said when the officer was
purportedly there. Further, Ms. Bennett-Wallace was
not listed in the government’s Federal Rule of Civil
Procedure 26(a)(1) disclosures and has not been
deposed, in part because the government successfully
opposed the plaintiff’s effort to depose her. Having
failed to properly disclose the witness and having
blocked her deposition, the government cannot rely on
her declaration to support its position on the current
motion. See Fed. R. Civ. P. 37(c)(1).
The government also points to the testimony of
Courtney McCrae, another Forest Service official who
was not present at the A-cola Gathering. Mr. McCrae
testified that two officers “routinely” patrolled the
Apalachicola National Forest and “would have”
enforced the permit. ECF No. 53-2 at 2-3. But
patrolling the forest does not mean patrolling the
event. And what matters is not what an officer
“routinely” did but what an officer did at this
Gathering on this day. Finally, what matters is not
what an officer “would have” done but what an officer
actually did. Mr. McCrae’s testimony gives little
assurance that any officer in fact patrolled the A-cola
Gathering.
There is, finally, an interrogatory answer stating
that Forest Service law enforcement officers “patrol
these events”—presumably meaning group events like
the Rainbow Gathering. ECF No. 49-12 at 3. But again,
evidence that law enforcement routinely patrolled

App. 22
events of this kind gives little assurance that law
enforcement patrolled this event.
Even assuming, though, that Forest Service law
enforcement officers did not patrol the A-cola
Gathering, this does not mean that the Forest Service
violated a nondiscretionary duty. Forest Service
policies require law enforcement to patrol national
forests and to “monitor developed recreation areas,
areas of concentrated public use, and dispersed areas
for illicit drug possession and use.” ECF No. 49-10 at 4.
But no policy requires the Forest Service to conduct
patrols with any specified frequency. No policy required
patrols at the A-cola Gathering at the time when Mr.
Hurst obtained or took drugs or seized that day. The
decisions when and how frequently to patrol the forest
or the A-Cola Gathering implicated policy choices about
the best use of scarce law enforcement resources.
Making those decisions was a discretionary function.
D
Forest Service policy required Forest Service law
enforcement to “cooperate with local law enforcement
agencies in the enforcement of all State and local laws
that are related to public safety.” ECF No. 49-9 at 12.
The Forest Service had a standing agreement with the
Leon County Sheriff that satisfied this requirement.
ECF No. 49-12 at 3.
The Forest Service did not execute a separate
agreement with the Leon County Sheriff to provide law
enforcement for the A-cola Gathering. Deputy sheriffs
were not on scene until after Mr. Hurst overdosed. But
no policy required the Forest Service to enter separate

App. 23
agreements for group events, nor was the Forest
Service required to arrange for local law enforcement
to be present during group events. Whether to request
backup local law enforcement presence at the A-cola
Gathering was a discretionary function.
IV
Even if the Federal Tort Claims Act’s
discretionary-function exception did not bar this action,
the government would be entitled to summaryjudgment under the Florida Recreational Use Statute.
Under Florida law, a property owner ordinarily
owes invitees a duty to use reasonable care to maintain
the property in a reasonably safe condition. Grimes v.
Family Dollar Stores, 194 So. 3d 424, 427 (Fla. 3d DCA
2016). But under the Florida Recreational Use Statute,
a property owner “who provides the public with an area
for outdoor recreational purposes owes no duty of care
to keep that area safe for entry or use by others, or to
give warnings to persons entering or going on that area
of any hazardous conditions, structures, or activities on
the area.” Fla. Stat. § 375.251. This statutory
limitation on tort liability “applies only if no charge is
made for entry to or use of the area for outdoor
recreational purposes and no other revenue is derived
from patronage of the area for outdoor recreational
purposes.” Id.
The government did not charge a fee for entry to or
use of the area around Moore Lake, where the A-cola
Gathering was held. The government also did not
derive any revenue from patronage of that area. Under
the plain terms of the Florida Recreational Use

App. 24
Statute, the government had no duty to make the area
safe. The government is entitled to summary judgment
on that basis.
This result accords with ample authority on the
Florida Recreational Use Statute. See Kleer v. United
States, 761 F.2d 1492 (11th Cir. 1985) (holding there
was no duty to make safe an area of a national forest
from which the government derived no revenue);
Fernandez v. United States, No. 17-cv-21422-GAYLES,
2017 WL 6343575 (S.D. Fla. Dec. 12, 2017) (holding
there was no duty to make safe an area of a national
park from which the government derived no revenue);
Lopez v. United States, No. 13-22427-CIV-GRAHAM/
SIMONTON, 2014 WL 11894429 (S.D. Fla. June 10,
2014) (same); Zuk v. United States, 698 F. Supp. 1577
(S.D. Fla. 1988) (holding there was no duty to make
safe an area of a national historic site from which the
government derived no revenue).
In asserting the contrary, the plaintiff cites
Goodman v. Juniper Springs Canoe Rentals &
Recreation, 983 F. Supp. 1384 (M.D. Fla. 1997). There
the plaintiff sued the government for injuries sustained
in the Ocala National Forest while using a canoe
rented from a private rental agency. The court rejected
the recreational-use defense because the government
received a portion of the rental agency’s revenue. Here,
in contrast, the government did not derive any revenue
at all from Mr. Hurst’s activities, the A-cola Gathering,
or more generally from the public’s use of the Moore
Lake area.
To be sure, the United States charges for entry to
other areas of the Apalachicola National Forest—areas

App. 25
within three or four miles of Moore Lake. But the
Florida Recreational Use Statute’s limitation of
liability turns not on whether an owner derives
revenue from any part of the property, but whether the
owner derives revenue from the “area” of the property
where an injury occurred. “Area,” as the statute uses
that term, “denotes something less than an entire
parcel of land.” Kleer, 761 F.2d at 1495. The areas the
government charges to access are separate from Moore
Lake—indeed, getting from the latter to the former
requires passing through a gate and paying a fee. The
statute bars the claim of negligent failure to make the
Moore Lake area reasonably safe.
Finally, as the plaintiff correctly notes, the Florida
Recreational Use Statute “does not relieve any person
of liability that would otherwise exist for deliberate,
willful, or malicious injury to persons or property.” Fla.
Stat. § 375.251. The plaintiff says this provision applies
here. But the record includes no evidence supporting
the claim that the government deliberately, willfully, or
maliciously injured Mr. Hurst. Even if the plaintiff’s
claims were not barred by the Federal Tort Claims
Act’s discretionary-function exception, the government
would be entitled to summary judgment based on the
Florida Recreational Use Statute.

App. 26
V
For these reasons,
IT IS ORDERED:
1. The government’s motion to dismiss for lack of
subject-matter jurisdiction or alternatively for
summary judgment, ECF No. 48, is granted.
2. The clerk must enter judgment stating, “This
action was resolved on a motion to dismiss or for
summary judgment. The claims of the plaintiff Kyle
Ray Hurst, as personal representative of the estate of
Andrew James Hurst, against the defendant United
States of America are dismissed for lack of
subject-matter jurisdiction and would alternatively be
dismissed on the merits.”
3. The clerk must close the file.
SO ORDERED on May 30, 2018.
s/Robert L. Hinkle____________
United States District Judge

App. 27
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
CASE NO. 4:17-cv-00025-RH-CAS
[Filed May 30, 2018]
________________________________
KYLE RAY HURST,
)
)
VS
)
)
UNITED STATES OF AMERICA, )
________________________________ )
JUDGMENT
This action was resolved on a motion to dismiss or
for summary judgment. The claims of the plaintiff Kyle
Ray Hurst, as personal representative of the estate of
Andrew James Hurst, against the defendant United
States of America are dismissed for lack of
subject-matter jurisdiction and would alternatively be
dismissed on the merits.
JESSICA J. LYUBLANOVITS
CLERK OF COURT
May 30, 2018__
DATE

s/Tiffinie Larkins___________
Deputy Clerk: Tiffinie Larkins

App. 28

APPENDIX C
Authorization ID:
WAK30012
Contact ID:
RAINBOW FAMILY
Expiration Date:
03/31/2013

F8-2700-3b (10/09)
OMB No. 0596-0082

U.S. DEPARTMENT OF AGRICULTURE
FOREST SERVICE
SPECIAL USE PERMIT FOR
NONCOMMERCIAL GROUP USE
(Ref.: 36 CFR 251.54)
Authority: Organic Act of 1897,16 U.S.C. 551
PART I - APPLICATION
1. APPLICANT INFORMATION:
Name of Group or Event: Rainbow Family Gathering
Address of Group or Contact: Greg Beck
PO Box 16622 T, Tallahassee, FL 32317
Name of Contact: Forkman
The contact shall be available to the Forest
Service from the date this application is signed
until it is accepted, rejected, or denied.
Day Phone: (850) 443-7590
Evening Phone: (850) 878-4493

App. 29
2. DESCRIPTION OF PROPOSED ACTIVITY:
Gathering/Camping according to map Exhibit A and
operating plan Exhibit B
3. LOCATION & DESCRIPTION OF NATIONAL
FOREST SYSTEM LANDS & FACILITIES
APPLICANT WOULD LIKE TO USE:
Moore and Dog Lake area, Attached map Exhibit A
4. ESTIMATED NUMBER OF PARTICIPANTS
& SPECTATORS FOR PROPOSED ACTIVITY:
Participants: 600 to 1,000

Spectators:

5. STARTING & ENDING DATE & TIME OF
PROPOSED ACTIVITY:
Start Date: 03/01/2013 Time: 0800
End Date: 03/31/2013 Time: 2400
6. NAME OF PERSONS WHO WILL SIGN A
SPECIAL USE PERMIT ON BEHALF OF THE
GROUP (May be same as contact listed in Item
1.):
Name: Greg Beck

Name: Harold Shenk

Address: 16622 T,
Tallahassee, FL 32317

Address:

Day Phone: ( ) Day Phone: (850) 443-7590 Evening Phone: ( ) Evening Phone: ( ) Signature: s/____________
Signature: s/____________ Date: 3-1-13
Date: 3-1-13

App. 30
APPLICATION NOT VALID UNLESS SIGNED
BY CONTACT
_______________________
Signature of Contact

Date:

18 U.S.C. § 1001 makes it a crime for any person
knowingly and willfully to make to any department
or agency of the United States any false, fictitious, or
fraudulent statements or representations as to any
matter within its Jurisdiction. Anyone who
knowingly or willfully makes or uses any false
writing shall be fined not more than $10,000 or
imprisoned not more than five years, or both.
PART II - PERMIT
Purpose:
Noncommercial group use permits do not grant or
deny freedom of assembly or freedom of speech. The
rights to freedom of assembly and freedom of speech
are guaranteed by the United States Constitution.
These rights are fully respected by the Forest
Service. When noncommercial group use permits are
issued, they regulate time, place, and manner with
respect to the exercise of these rights by groups of 75
or more people on National Forest System lands.
Noncommercial group use permits authorize the
holder to use and occupy the National Forest System
lands covered by the permit, subject to rights
retained by the United States, including continuing
rights of access, a continuing right of physical entry
for inspection, monitoring, or for any other purposes
consistent with any right or obligation of the United

App. 31
States, and the right to require common use of the
land or to authorize use by others In any way that is
not inconsistent with the privileges granted by the
permit. The use and occupancy authorized by a
noncommercial group use permit would not be
allowed without the permit. The primary purposes of
noncommercial group use permits include protection
of National Forest System lands and resources,
promotion of public health and safety, and allocation
of space among competing uses of National Forest
System lands.
1. Use under this permit shall begin on 03/01/2013
08:00 and end on 03/31/2013 24:00. The permit shall
not be extended.
2. Rainbow Family C/O Greg Beck (the holder) is
hereby authorized to use, subject to the terms of this
permit, National Forest System lands described as
Moore and Dog Lake, as shown in attached Exhibit
A. This permit covers approximately 3 square miles.
3. The holder is authorized to conduct the following
activities and install the following improvements in
the permitted area:
Recreational gathering from March 1 to March 31 at
location known as Moore Lake and Dog Lake as
Exhibit A and B regulate.
4. The holder shall conduct the authorized activities
according to the attached approved plans and
specifications, Exhibit(s) A, B. The holder shall not
install any improvements not specifically identified
and approved in clause 3, in exhibits attached to this

App. 32
permit, or by the authorized officer during the
activity authorized by this permit.
5. No soil, trees, or other vegetation may be
destroyed or removed from National Forest System
lands without specific prior written permission from
the authorized officer.
6. The holder shall comply with all federal, state,
county, and municipal laws, ordinances, and
regulations which are applicable to the area or
operations covered by this permit.
7. The holder shall maintain the improvements and
premises to standards of repair, orderliness,
neatness, sanitation, and safety acceptable to the
authorized officer. The holder shall fully repair and
bear the expense for all damages, other than
ordinary wear and tear, to National Forest System
lands, roads and trails caused by the holder’s
activities.
8. The holder has the responsibility of inspecting the
use area and adjoining areas for dangerous trees,
hanging limbs, and other evidence of hazardous
conditions which would pose a risk of injury to
individuals. After securing permission from the
authorized officer, the holder shall remove such
hazards.
9. The holder shall be liable for any injury, loss, or
damage including fire suppression costs and
environmental harm or injury to natural resources,
that arises in connection with the use and occupancy
authorized by this permit.

App. 33
10. The holder shall indemnify and hold harmless
the United States for any injury, loss, or damage,
including third-party claims, damage to federal
property, fire suppression costs, and environmental
harm or injury to natural resources, that arises in
connection with the use and occupancy authorized by
this permit.
11. The persons who sign this permit are not subject
to any individual liability under this permit as a
result of that signature. They provide their name
solely to allow notice of actions pertaining to the
permit to be communicated to the holder and to give
the permit legal effect. At least one of the persons
who sign this permit shall be available to the Forest
Service from the date this permit is issued until the
use authorized by this permit has concluded.
12. The holder agrees to permit free and unrestricted
access to and upon the premises at all times for all
lawful and proper purposes not inconsistent with the
intent of the permit or with the reasonable exercise
and enjoyment by the holder of the privileges thereof.
13. This permit is subject to all valid existing rights
and claims outstanding in third parties.
14. This authorization may be revoked or suspended
only in accordance with 38 CFR 251.80(a)(1)(i). Upon
expiration or revocation of this permit, the holder
shall immediately remove all improvements except
those owned by the United States, and shall restore
the site within 30 days, unless otherwise agreed
upon in writing. If the holder fails to remove the
improvements, they shall become the property of the

App. 34
United States, but that will not relieve the holder of
liability for the cost of their removal and the
restoration of the site.
15. This permit is a license for the use of federally
owned land. It does not grant any interest in real
property. This permit is not transferable. The holder
shall not enter into any agreements with third
parties for occupancy of the authorized premises and
improvements.
16. Any decision concerning this permit, including
but not limited to suspension or revocation and
modification of permit terms and conditions, is not
subject to administrative appeal and is immediately
subject to judicial review.
17. This permit is accepted subject to the conditions
set forth herein, including any conditions in any
exhibits attached to land made a part of this permit.
18. The above clauses shall control if they conflict
with additional clauses or provisions.
I have read and
U.S. DEPARTMENT
understand the terms OF AGRICULTURE
and conditions and
Forest Service
agree to abide by them.
Authorization is granted:
HOLDER:
By:_____________________ By:____________________
(Holder Signature)
(Authorized Officer Signature)

App. 35
RAINBOW FAMILY C/O
Greg Beck “Forkman”

MARCUS A. BEARD

Name:__________________ Name:_________________
District Ranger
Date:___________________ Title:__________________

App. 36
EXHIBIT B
OPERATING PLAN
FOR
RAINBOW FAMILY 2013
WAKULLA RANGER DISTRICT
APALACHICOLA NATIONAL FOREST
1.

No parking along FR 358 (Silver Lake Road), FR
370, or FR 324 (Dog Lake Tower Road).

2.

The dispersed areas known as Moore and Dog
Lake will be open to the general public for use
and motorcycle trails within this area will not be
blocked.

3.

Live aboard, parking, and camping will be
located in areas identified on map Exhibit A. All
vehicles parked along roads must park in a
manner to not restrict ingress and egress of
emergency vehicles. Gathering participants on
site will inform new arrivals as to where to park
vehicles.

4.

All digging must occur only in authorized areas
as shown on map Exhibit A (unauthorized in red
hatched areas on map).

5.

No camping is permitted within 75 feet of any
body of water.

6.

No camping, or digging within areas marked
with pink and black striped colored flagging.

7.

Campfires must be attended at all times

App. 37
8.

Water within the permitted area may be used
for a variety of activities, not to exclude
swimming.

9.

Only dead and down wood (no green or standing
trees) may be used for fires and building of
kitchens.

10.

Trash, after recycling, will be removed from the
site on a daily basis and not allowed to pile up.

11.

Owners of vehicles will comply with all federal,
state, county and municipal regulations
concerning the disposal of gray/black water.

12.

Participants must adhere to the food storage
restriction order regarding substances that may
attract bears.

13.

There will be a point of contact available daily.

Date:_________________
According to the, Paperwork Reduction Act of 1995,
an agency may not conduct or sponsor, and a
person is not required to respond, to a collection of
information unless it displays a valid OMB control
number. The valid OMB control number for this
information collection is 0596-0082. The time
required to complete this information collection is
estimated to average 15 minutes per response,
Including the time or reviewing instructions,
searching existing data sources, gathering and

App. 38
maintaining the data needed, and completing and
reviewing the collection of information.
The U.S. Department of Agriculture (USDA)
prohibits discrimination in all its programs and
activities on the basis of race, color, national origin,
age, disability, and, where applicable, sex, marital
status, familial status, parental status, religion,
sexual orientation, genetic information, political
beliefs, reprisal, or because all or part of an
individual’s income is derived from any public
assistance. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require
alternative means for communication of program
information (Braille, large print, audiotape, etc.)
should contact USDA’s TARGET Center at 202720-2600 (voice and TDD).
To file a complaint of discrimination, write USDA,
Director, Office of Civil Rights, 1400 Independence
Avenue, SW, Washington, DC 0250-9410 or call toll
free (866) 632·9992 (voice). TDD users can contact
USDA through local relay or the Federal relay at
(800) 877-3339 (TDD) or (866) 377·8642 (relay
voice). USDA Is an equal opportunity provider and
employer.
The Privacy Act of 1974 (5 U.S.C. 552a) and the
Freedom of Information Act (5 U.S.C. 552) govern
the confidentiality to be provided for information
received by the Forest Service.

